November 30, 2005


Helaine M. Barnett
President
Legal Services Corporation


Audit of LSC’s Compressed Work Schedule and Compensatory Time Programs
                           Report No. AU06-01

Background

The Office of Inspector General (OIG) performed an audit of the Legal Services
Corporation’s (LSC) Compressed Work Schedule (CWS) and Compensatory
Time (CompTime) Programs. The CWS program, within the LSC’s Alternative
Work Schedule Program, enables LSC employees to select work schedules that
provide flexibility in the number of days that employees are scheduled to work in
a pay period. An employee’s CWS contains designated core hours during the
days in a workweek. LSC employees have a basic work requirement of 1,950
hours per year.

As of December 31, 2004, LSC developed 13 Compressed Work Schedules.
These schedules provide employees different scheduling options for selecting a
CWS day, as appropriate, with their supervisor’s approval. Time scheduled for
lunch is in addition to the work requirement of each schedule. These scheduling
options also enable supervisors to obtain full coverage in the office at any given
day. According to the LSC policy, in determining the appropriate CWS for each
employee, the supervisor considers the employee’s desire to participate in the
program, along with the responsibilities of his/her position and the employee’s
ability to maintain the schedule based on his/her personal or family
responsibilities.

On occasion, corporate business may require LSC employees participating in the
CWS to work on a scheduled day off. In this event, nonexempt employees are
paid overtime at a time-and-a half rate while exempt employees are eligible to
earn compensatory time off in lieu of their regularly scheduled day off.
Compensatory time earned by LSC classified FLSA- exempt employees may be
used, with supervisory approval, in accordance with the LSC Compensatory
Time policy. Accumulated compensatory time must be used during the calendar
year it is accumulated; however, compensatory time accumulated during the last
quarter of the calendar year must be used by March 31st of the following year.
Payment will not be made for unused compensatory time.

A July 30, 2004 memorandum from the LSC President stated that LSC’s
alternative work schedule options, including CWS, will be left to the discretion of
office supervisors to determine its appropriateness in any given instance.
According to the memorandum, the overall impact on morale and productivity, as
well as the fostering of a family-friendly work environment had helped influenced
this decision.

As of December 31, 2004, there were 49 LSC employees participating in the
CWS program. According to the Office of Finance and Administrative Services
(OFAS) Senior Accountant, the LSC timekeepers submit at the end of every pay
period, through interoffice envelopes, hard copies of the individual employees’
completed “Official Compensatory Time Report Form” for their respective offices.
Some of these reports come on time, others arrive later. The OFAS Senior
Accountant enters the information from the individual reports in the CompTime
Excel spreadsheet. At the same time, the formulas in the Excel spreadsheet
automatically verify: (a) whether the beginning balances agree with the ending
balances shown on the last report and (b) the mathematical accuracy of earned
and used CompTime hours. The Senior Accountant also verifies the dates when
the CompTime hours were earned, as well as the employee’s and supervisor’s
signatures on the form. The supervisor’s signature attests to the propriety of the
CompTime hours earned. In addition, the Senior Accountant verifies that
CompTime hours earned during the last quarter of the previous year are used by
March 31st of the following year. If there are questions, the Senior Accountant
resolves the issues with the timekeepers.

Objectives, Scope, and Methodology

The objective of the audit was to determine the effectiveness of the management
of the CWS/CompTime programs. Specifically, we evaluated compliance with
the Corporation’s policies by the different LSC offices. We also evaluated
program controls, as well as determined the accuracy of the CWS and
CompTime recordkeeping and reports. The scope covered CY 2003 and CY
2004. The audit was conducted in accordance with generally accepted
government auditing standards.

The OIG’s audit methodology included:

•      Reviewing the CWS policy, within the LSC’s Alternative Work Schedule
       program, and LSC’s CompTime policy.
•      Analyzing the CompTime summary reports prepared by OFAS to identify LSC
       employees who “banked”1 CWS days into CompTime on a routine basis, as

1
    “Banking” is the practice of saving CWS days as earned CompTime for future use.


                                                           2
    well as employees who claimed compensatory time on a non-working status
    for Saturdays and Sundays.
•   Interviewing various LSC office directors to obtain information of their
    interpretation and implementation of the CWS/CompTime policy in their
    respective offices.
•   Interviewing timekeepers and the OFAS Senior Accountant to obtain
    information on recordkeeping controls and reconciliation procedures followed
    in processing and recording individual and summary CompTime reports.
•   Verifying CWS/CompTime reports for selected sample of employees to
    determine the extent of “banking” practices and supervisory approvals.
•   Verifying CompTime earned by selected sample of employees to determine
    propriety of CompTime earned on Saturdays/Sundays and supervisory
    approvals.

Results of Audit

We determined that the management of the CWS/CompTime programs is
generally effective. However, the CWS/CompTime policy needs to clearly
address routine “banking” of CWS days and compliance with the policy. There is
also a need to improve the accuracy of CompTime reports.

Clearer LSC Policy

The LSC policy on CWS was generally being followed; however, clearer
guidance needs to be developed to address instances in which individuals are
working routinely on CWS days and “banking” large numbers of these days as
CompTime. According to the Director of Human Resources, the CWS policy is
subject to management discretion. Hence, we found that various LSC office
directors interpreted and implemented the LSC CWS/CompTime policy
differently. Our interviews of six office directors disclosed that four directors
believe that the CWS “banking” practice is not the intent of the policy; therefore, it
is not appropriate to circumvent the policy’s intent. However, the remaining two
directors believe that the CWS policy allows routine “banking” of CWS days into
CompTime. The two supervisors believe that this practice is within the discretion
allowed in the CWS program, which benefits their respective office operations.

For example, one office director allowed one employee to work virtually every
scheduled CWS day and to “bank” routinely these CWS days into CompTime.
The CompTime was then used to supplement the employee’s vacation time,
which allowed the individual to be on extended leave (about 4 to 5 weeks at a
time). The office director stated that this particular employee is allowed the
extraordinary privilege because the employee is absolutely critical in the office
operations, and this arrangement meets the director’s and employee’s needs.
Another employee in this office also was allowed to routinely “bank” CWS days,
but the leave was used for several short absences rather than one long vacation.



                                          3
The other office director allowed two employees the same privilege of routinely
“banking” CWS days into CompTime. In 2005, one of these two employees
discontinued this practice by switching to flexitime. The director indicated that
the CWS “banking” practices of the two employees meet the needs of the office.

The LSC CWS policy states that all employees participating in CWS must
understand that, on occasion, corporate business may require them to work on a
scheduled day off. However, the policy is silent on the practice of routinely
“banking” CWS days.

As a result, one employee exceeded the 240 maximum carryover vacation hours
by 123.60 hours and 251.10 hours for 2003 and 2004 respectively. Another
employee exceeded the 240 maximum carryover vacation hours by 37.75 hours
and 29.75 hours for 2003 and 2004 respectively.

Further, allowing the routine “banking” of CWS days could increase LSC’s
potential liability for unpaid vacation leave because employees may use accrued
CompTime, rather than vacation leave, for vacation purposes; thus, allowing
larger balances of vacation leave to be carried forward. Also, because of
different interpretations of the CWS policy by office directors, LSC may be
subject to complaints of disparate treatment from LSC employees.

In a June 30, 2005 memorandum, the LSC Chief Administrative Officer reiterated
adherence to the Corporation’s vacation leave policy. As specified in the LSC
Personnel Manual, each employee’s carryover of accrued vacation leave should
be limited to 240 hours annually.

Recommendation 1: The President of LSC should clarify the CWS policy as it
pertains to routine “banking” of CWS days into CompTime. Should LSC
determine that a program is needed to allow extensive CompTime accumulation
for office operation purposes, we suggest that a separate policy be developed or
the leave policy be amended to provide the criteria under which the program
should operate.

Accuracy of CompTime Reports

Recordkeeping controls and reconciliation procedures within the various LSC
offices need improvement. Specifically, inaccurate individual CompTime reports
had been submitted for employees included in our sample by office timekeepers
to the OFAS Senior Accountant for 2003 and 2004. These individual reports are
the source documents for the OFAS summary reports.

For example, CompTime leave balances reflected in the OFAS summary reports
did not agree with the individual CompTime reports. Also, there were instances
in which CompTime reports had not been submitted by timekeepers to the OFAS
Senior Accountant. In particular, the 2003 summary report did not reflect



                                        4
75.5 hours of leave taken in October 2003 by one of the employees who routinely
“banks” CWS days into CompTime. Further, eight CompTime reports were
missing for two employees from the same office. Finally, two CompTime reports
for one employee did not have the employee’s signature and supervisory
approval.

This situation could be attributed to inattention to detail by the employees and
timekeepers. The OFAS Senior Accountant noted that after OIG started on the
CompTime audit, the accuracy of individual CompTime reports submitted to
OFAS has greatly improved.

Generally accepted accounting principles require appropriate recordkeeping
controls and reconciliation procedures. These controls provide for a complete
record of source documents that are properly signed and approved. In addition,
proper reconciliation procedures are vital to produce accurate reports. Accurate
reports provide reliable information, which is a necessary tool for LSC
management in its decision-making function.

Recommendation 2: The President of LSC should instruct office timekeepers
and the OFAS Senior Accountant to ensure the accuracy of individual and
summary CompTime reports through improved recordkeeping controls and
reconciliation procedures. As part of proper recordkeeping controls, the
timekeepers should retain copies of all employees’ CompTime reports.

Compliance with CompTime Policy

Contrary to the LSC CompTime policy, two employees earned CWS days
“banked” into CompTime leave during the last quarter of 2003 but did not use the
CompTime earned during the first quarter of 2004. Specifically, one employee
earned 47 hours during the last quarter of 2003 but used only 21 hours during
the first quarter of 2004. The other employee earned 45 hours during the last
quarter of 2003 but did not use this earned leave during the first quarter of 2004.
No waivers had been granted for these two employees.

The OFAS Senior Accountant indicated that the CompTime Excel spreadsheet is
now properly programmed to automatically forfeit employees’ CompTime leave
earned during the last quarter of the previous year but not taken by March 31st of
the following year.

Recommendation 3: The President should develop instructions for office
timekeepers and the OFAS Senior Accountant to ensure compliance with the
LSC CompTime Policy. These instructions should include procedures to follow if
CompTime is not used during the allowable time frame.




                                         5
Summary of LSC Management’s Comments

On November 8, 2005, the LSC President provided a written response to the
draft report stating that LSC management agreed with the findings and
recommendations contained in the report. Specifically, LSC management

      •   will incorporate in the CWS policy a clarification relating to routine
          “banking” of CWS days into CompTime;

      •   has brought the records up to date and has instructed office timekeepers
          and the OFAS Senior Accountant to ensure the accuracy of individual and
          summary CompTime reports through improved record keeping controls
          and reconciliation procedures; and

      •   will issue revised procedures that will include compliance with CWS and
          CompTime policies.

The complete text of the LSC management comments can be found at
Attachment 1.

OIG Evaluation of LSC Management’s Comments

LSC management’s comments are responsive to our findings and
recommendations. The OIG considers the actions taken or planned sufficient to
address the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information, please contact
Ammie S. Laguilles at 202-295-1657 or me at 202-295-1663.



Ronald D. Merryman
Acting Assistant Inspector General for Audit

Attachment 1: Memo from Helaine M. Barnett to Kirt West, dated 11/08/05


cc:       Victor Fortuno
          Vice President for Legal Affairs/
          General Counsel/Corporate Secretary




                                             6
                                                                                    ,   ATTACHMENT I
                                                                                    I




                                   MEMORANDUM


TO:      -    KirtWest

FROM:         Helaine M. Barnett   ,w
DATE:         November 8,2005

SUBJECT: CWS audit

        The Office of the Jnspector General (OIG) submitted to LSC management a draft report
entitled "Audit of LSC's Compressed Work Schedule and Compensatory Time Programs'' on
September 28,2005. Attached is Management's response.



cc:    Charles Jeffress
       Victor Fortun0
                                 MANAGEMENT RESPONSE

                       TO THE OFFICE OF INSPECTOR GENERAL'S
                                   AUDIT OF LSC'S
                           COMPRESSED WORK SCHEDULE
                        AND COMPENSATORY TIME PROGRAMS

                                        November 8,2005


LSC'S  management is committed to the efficient and effective management of the Corporation,
including the f a i r and effective administration of our personnel policies. LSC management has
reviewed the audit report provided by the OIG on the compressed worktime and compensatory
time policies. The OIG recommendations and management responses are as follows:

Recommendation 1: Clarify CWS policy as it relates to routine 'banking' of CWS days into
                       CompTime.

        We agree with this recommendation and will incorporate it into a revision of our overall
        cws policy before the end of the calendar year. Along with that revision will be a
        clarification of our compensatory time policy.

Recommendation 2: Instruct office timekeepers and the OFAS Senior Accountant to ensure the
                       accuracy of individual and summary CompTime reports through improved
                       recordkeeping controls and reconciliation procedures.

        We agree with this recommendation and have already reconciled all compensatory time
        records to bring them up to date. The Office of Financial and Administrative Services
        has worked with timekeepers to insure that our current policy is being followed. On
        October 20,2005, we discussed this subject with office directors and reminded directors
        of their responsibilities for keeping these records accurately. Timekeepers have been
        provided copies of the compensatory time records so that they can keep records up to
        date at the office level.

Recommendation 3: Develop instructions for office timekeepers and the OFA Senior
                      Accountant to ensure compliance with the LSC CompTime Policy.

        Since the compensatory time policy is a part of our Personnel Manual, responsibility for
        this recommendation belongs with the Office of Human Resources. When we adopt our
        new cWS policy this year, we will issue revised procedures that cover compliance with
        CWS and compensatory time policies.
